audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grantsto the Portland Police Bureau, Oregon
GR-90-00-005
October 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Portland Police Bureau (PPB).  The purpose of the grants is to enhance community policing.  The PPD was awarded a total of $11,296,174 to hire 60 new police officers and redeploy the equivalent of 47.6 existing full-time officers from administrative duties to community policing.

We reviewed the PPB's compliance with eight essential grant conditions.  We found the PPB's practices for budgeting, hiring, meeting the local match, retention, implementation of community policing, and redeployment to be acceptable.  However, we found weaknesses in the areas identified below.  As a result, we question $29,107. 1

The PPB's four requests for reimbursement for the UHP grant included $29,107 in unallowable costs for non-COPS funded officers.

	Several status reports were not timely.  The Department Initial Report and 1997 Annual Department Report were not timely submitted.  Two of the six financial status reports (FSR) submitted for the UHP grant were not timely.  Two of the six FSRs submitted for the MORE 95 grant were not timely.  Three of the nine FSRs submitted for the MORE 96 grant were not timely.  In addition, the PPB submitted one FSR for the period from January 1 through June 30, 1997, instead of submitting the required quarterly FSRs for period ending March and June 1997, for the MORE 96 grant. 
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.